Case: 19-12548

Date Filed: 07/14/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No, 19-12548-GG
ANTOINETTE MARQUES,
Plaintiff - Appellant,
versus
JP MORGAN CHASE, N.A.,
Defendant - Appellee.
Appeal from the United States District Court
for the Northern District of Georgia
BEFORE: MARTIN, ROSENBAUM, and BRANCH, Circuit Judges.
PER CURIAM:
The Petition for Panel Rehearing»filed by the Appellant, Antoinette Marques, is DENIED.

ORD-41

Case l:16-cv-01215-LMM Document 132 Filed 02/20/20 Page 1 of 7
Case: 19-12548 Date Filed: 02/20/2020 Page: 1 of 6

[DO NOT PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 19-12548
Non-Argument Calendar

D.C. Docket No. l:16-cv-01215-LMM
ANTOINETTE MARQUES,
Plaintiff - Appellant,
versus
JP MORGAN CHASE, N.A.,
Defendant - Appellee.

Appeal from the United States District Court
for the Northern District of Georgia
(February 20, 2020)
Before MARTIN, ROSENBAUM, and BRANCH, Circuit Judges.
PER CURIAM:
Antoinette Marques, pro se, appeals the denial of her post-judgment motions,
under Rules 59(e) and 60(b) of the Federal Rules of Civil Procedure, seeking relief

Case l:16-cv-01215-LMM Document 132 Filed 02/20/20 Page 2 of 7
Case: 19-12548 Date Filed: 02/20/2020 Page: 2 of 6

from the district court’s order granting summary judgment on Marques’s complaint
against JP Morgan Chase, N.A. (“Chase”), alleging various claims arising out of the
foreclosure of her home.1 The court denied the Rule 59(e) motion as untimely and
the Rule 60(b) motion as an attempt to relitigate matters that had already been
addressed. After careful review, we affirm.
We review for an abuse of discretion the denial of a motion under Rule 59(e)
or Rule 60(b) of the Federal Rules of Civil Procedure. Arthur v. King, 500 F.3d
1343 (11th Cir. 2007) (Rule 59(e)); Ricev. Ford Motor Co., 88 F.3d 914, 918 (11th
Cir. 1996) (Rule 60(b)).
We first consider Marques’s Rule 59(e) motion. Rule 59(e) permits a party to
file a motion to alter or amend the judgment. Fed. R. Civ. P. 59(e). Relief is proper

On September 19, 2019, we entered an order dismissing the appeal as to the underlying
final judgment but allowing the appeal to proceed as to the denial of Marques’s post-judgment
motions. As we explained in that order, although Marques received an extension of time to file
her post-judgment motions under Rules 59 and 60, Fed. R. Civ. P., these motions did not toll the
time to file an appeal as they ordinarily would, see Fed. R. App. P. 4(a)(4), because the district
court is prohibited from extending the time to file them. Green v. Drug Enf’t Admin., 606 F.3d
1296 1300-01 (11th Cir. 2010) (“Because Rule 6(b)(2) prohibits extending the time to file a Rule
59(e) motion, the district court’s grant of Green’s motion for extension of time to file his motion
for reconsideration did nothing to toll the time in which he had to file his Rule 59(e) motion.”).
As a result, Marques’s notice of appeal, though timely as to the denial of her post-judgment
motions, was not timely to appeal the final judgment. This was no fault of Marques, a pro se party
who simply relied on the district court. But unfortunately, we cannot excuse Marques’s untimely
filing because the “timely filing of a notice of appeal in a civil case is a jurisdictional requirement”
that must be complied with, no matter the circumstances. Bowles v. Russell, 551 U S 205 213/itigMt07^ H°WeVer’ We remind district courts of these ™les and the consequences for p
ro se
2

Case l:16-cv-01215-LMM Document 132 Filed 02/20/20 rPage 3 of 7
Case: 19-12548 Date Filed: 02/20/2020 Page: 3 of 6

under Rule 59(e) only if the party presents newly discovered evidence or
demonstrates a manifest error of law or fact. Arthur, 500 F.3d at 1343.
A motion under Rule 59(e) must be filed within 28 days of the judgment. Fed.
R. Civ. P. 59(e). The district court is prohibited from extending this time period.
See Fed. R. Civ. P. 6(b) (“A court must not extend the time to act under Rules 50(b)
and (d), 52(b), 59(b), (d), and (e), and 60(b).”); Green v. Drug Enf't Admin., 606
F.3d 1296, 1300-01 (11th Cir. 2010) (“To help preserve the finality ofjudgments, a
court may not extend the time to file a Rule 59(e) motion.”). Nevertheless, Rule
6(b)’s prohibition on extending the time to file under Rule 59(e) is a “claimsprocessing rule rather than a jurisdictional rule,” which means a court may consider
the merits of an untimely Rule 59(e) motion if the opposing party fails1 to object to
the court’s violation of Rule 6(b). Advanced Bodycare Sols., LLC v. Thione Int 7,
Inc., 615 F.3d 1352,1359 n.15 (11th Cir. 2010).
Here, the district court properly denied Marques’s Rule 59(e) motion as
untimely for two reasons. First, the motion was not filed within 28 days of the
judgment. See Fed. R. Civ. P. 59(e). And the court was not authorized to extend
that time period, despite its order purporting to do so. See Fed. R. Civ. P. 6(b).
While Rule 6(b) is a claim-processing rule that may be forfeited, Chase properly

Case l:16-cv-01215-LMM Document 132 Filed 02/20/20 Page 4 of 7
Case: 19-12548 Date Filed: 02/20/2020 Page: 4 of 6

raised its objection to the time extension at the first available opportunity.2
Accordingly, the court did not abuse its discretion by enforcing Rule 6(b),
notwithstanding its prior order, and denying the Rule 59(e) motion as untimely. See
AdvancedBodycare, 615 F.3d at 1359 n. 15.
But even if we consider the time extension to be effective, the Rule 59(e)
motion was still untimely. The district court ordered that Marques “shall have
through and including April 29, 2019 to submit her 59(e) Motion.” However, the
district court received her motion on May 2, 20l9, three days late. Although it
l

appears that Marques mailed the Rule 59(e) motion on April 29, she cannot rely on
the date of mailing because—except in cases ofpro se inmates—a document is not
deemed filed until it is received by the district-court clerk. See Houston v. Lack, 487
U.S. 266, 273 (1988) (“[Rjeceipt constitutes filing in the ordinary civil case ...
So her motion was filed too late. Accordingly, the court did not abuse its discretion
by enforcing the terms of its extension order.
Nor did the district court abuse its discretion in denying Marques’s Rule 60(b)
motion. Under Rule 60(b), courts may relieve a party from a judgment or order on
several grounds, including (1) mistake, inadvertence, surprise, or excusable neglect;
(2) newly discovered evidence; (3) fraud; (4) the judgment is void; (5) the judgment

2 Because
the motion for extension wasgranted within two days of its filing, Chase did not
,
,
have an adequate opportunity to raise an objection to the extension at that time, As a result, Chase
was permitted to raise its objection in response to the Rule 59(e) motion.
4

Case l:16-cv-01215-LMM Document 132 Filed 02/20/20 Page 6 of 7
Case: 19-12548 Date Filed: 02/20/2020 Page: 6 of 6
it was within the court’s discretion to consider the belated response. See N.D. Ga.
R. 7.1(F) (“The Court, in its discretion, may decline to consider any motion or brief
that fails to conform to the requirements of these rules.” (emphasis added)); Reese
v. Herbert, 527 F.3d 1253, 1267 n.22 (11th Cir. 2008) (“We . . . review a district
court’s application of local rules for an abuse of discretion.”).
And in any case, even an unopposed motion does not automatically entitle the
movant to relief. The district court still must assess the merits of the motion and
determine whether relief is warranted under the applicable rules. Cf. United States
v. One Piece ofReal Prop. Located at 5800 SW 74th Ave., 363 ¥ 3d 1099, 1101 (11th
Cir. 2004) (“[T]he district court cannot base the entry of summary judgment on the
mere fact that the motion was unopposed, but, rather, must consider the merits of the
motion.”). Here, the court did so and properly denied relief under Rule 60(b).
Finally, Marques raises a number of challenges to the underlying judgment,
including whether the court should have granted leave to amend. However, for the
reasons explained in footnote 1, we lack jurisdiction to review that judgment. And
an appeal from the denial of a Rule 60(b) motion “does not bring up the underlying
judgment for review.” Cavalierev. Allstate Ins. Co., 996F.2d 1111,1115 (11th Cir.
1993) (quotation marks omitted).
For these reasons, we affirm the denial of Marques’s post-judgment motions.
AFFIRMED.
6

Case l:16-cv-01215-LMM Document 125 Filed 06/12/19 Page 1 of 5

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
ANTOINETTE MARQUES,
Plaintiff,
v.
CIVIL ACTION NO.
i:i6-CV-i2i5-LMM-AJB

JP MORGAN CHASE BANK, N.A.,
Defendant.
ORDER

This case comes before the Court on Plaintiffs Motion to Alter or Amend
Clerk's Judgment and Final Order [120] and Plaintiffs Motion for Relief from
Judgment [121]. After due consideration, the Court enters the following Order:
I.

BACKGROUND
On February 26, 2019, this Court adopted the Magistrate Judge's Report

and Recommendation (“R&R”) and granted Defendant’s Motion for Summary
Judgment. See Dkt. No. [in]. On March 25, 2019, Plaintiff filed a Combined
Motion and Memo for Extension of Time to file a 59(e) Motion, 60(b) Motion,
and Appeal. See Dkt. No. [116]. The Court granted Plaintiffs Motion on March
27, 2019, extending the deadline for Plaintiff to her submit her motions through
and including April 29, 2019. See Dkt. No. [117]. Plaintiff ultimately filed her

Case l:16-cv-01215-LMM Document 125 Filed 06/12/19 Page 2 of 5

Motion to Alter or Amend Clerk’s Judgment and Final Order and Motion for
Relief from Judgment on May 2, 2019. See Dkt. Nos. [120; 121].
II.

LEGAL STANDARD
Parties ... may not employ a motion for reconsideration as a vehicle to

present new arguments or evidence that should have been raised earlier,
introduce novel legal theories, or repackage familiar arguments to test whether
the Court will change its mind.” Brogdon v, Nat’l Healthcare Corp 103 F. Supp.
2d 1322,1338 (N.D. Ga. 2000) (internal citations omitted). Rather, to warrant
vacating a final order, parties must satisfy the standards of either Rule 59(e)
(motion to alter or amend a judgment) or Rule 60(b) (motion for relief from
judgment or order). Region 8 Forest Serv. Timber Purchasers Council v. Alcock.
993 F.2d 800, 806 n.5 (11th Cir. 1993).
Appropriate grounds for reconsideration under Rule 59(e) include: (1) an
intervening change in controlling law, (2) the availability of new evidence, and (3)
the need to correct clear error or prevent manifest injustice. See Hood v. Perdue
300 F. App’x 699, 700 (11th Cir. 2008) (citing Pres. Endangered Areas of Cobh’s
History, Inc, v. U.S. Army Corps of Eng’rs. 916 F. Supp. 1557,1560 (N.D. Ga.
1995), affd, 87 F.3d 1242 (11th Cir. 1996)); Estate of Pidcock v. SnnnvlanH a™
Im., 726 F. Supp. 1322,1333 (S.D. Ga. 1989). Therefore, a party “cannot use a
Rule 59(e) motion to relitigate old matters, raise argument or present evidence
that could have been raised prior to the entiy of judgment.” Michael Linet. Inc, v.

Case l:16-cv-01215-LMM Document 125 Filed 06/12/19 Page 3 of 5

Village of Wellington, 408 F.3d 757, 763 (11th Cir. 2005). Motions under Rule
59(e) must be made within twenty-eight days of judgment. Fed. R. Civ. P. 59(e).
Likewise, appropriate grounds for reconsideration under Rule 60 include
“mistake, inadvertence, surprise, or excusable neglect,” newly discovered
evidence, fraud, a void judgment, or a judgment that has been satisfied or is no
longer applicable. Fed. R. Civ. P. 60(b). A party may also seek relief from a final
judgment for “any other reason that justifies relief.” Fed. R. Civ. P. 60(b)(6). Rule
60(b) motions must be made within three years of judgment. Fed. R. Civ. P.
60(c)(1).
II.

DISCUSSION
To begin, Plaintiff untimely filed her Rule 59(e) Motion. A party must file a

motion to alter or amend a judgment no later than twenty-eight days after the
entry of judgment. Fed. R. Civ. P. 59(e). Moreover, “[t]o help preserve the finality
of judgments, a court may not extend the time to file a Rule 59(e) motion.” Green
v. Drug Enft Admin., 606 F.3d 1296,1300 (11th Cir. 2010) (citing Fed. R. Civ. P.
6(b)(2)). Because Rule 6(b)(2) prohibits extending the time to file a Rule 59(e)
motion, the Court’s grant of Plaintiffs motion for extension of time on March 27,
2019 “did nothing to toll the time” in which Plaintiff had to file her Rule 59(e)
motion. Id; see also Brandau v. Warden. FCC Coleman-Medium 476 F. App’x
367, 369 (11th Cir. 2012) (“Rule 59(e)’s time limit is mandatory—district courts

3

Case l:16-cv-01215-LMM Document 125 Filed 06/12/19 Page 4 of 5

do not have the authority to extend this 28-day time requirement.”)1 In the
instant case, the Court entered final judgment on February 26, 2019. Dkt. No.
[111]. Plaintiff did not file her Motion to Alter or Amend Judgement until May 2,
2019. Dkt. No. [120]. Accordingly, Plaintiffs Motion to Alter or Amend
Judgement [120] under to Rule 59(e) is DENIED as untimely.
Nor is Plaintiffs Motion for Relief from Judgment [121] an appropriate
motion for reconsideration pursuant to Rule 60(b), as it merely repackages
arguments that have previously been addressed by this Court. See Schwindler v.
Owens, No. iui-cv-1276, 2013 WL11327698, at *1 (N.D. Ga. Sept. 30, 2013)
(“Rule 60(b) motions may not be used to rehash arguments or relitigate issues.”).
Indeed, Plaintiffs primary argument for relief under Rule 60(b) is that the Court
erred by overlooking evidence that Defendant did not own the Note when it
published the Newspaper Sale Notice in October 2014. See Dkt. No. [121] at 2-3.
But as discussed at length in previous orders, the Georgia Supreme Court has
made clear that “the holder of a deed to a secure debt is authorized to exercise the
power of sale in accordance with the terms of the deed even if it does not also
hold the note or otherwise have any beneficial interest in the debt obligation
underlying the deed.” Dkt. No. [25] at 17-18 (citine You v. JP Morgan ChasP
Bank, 743 S.E.2d 428,433 (Ga. 2013)). Likewise, the Court has already

1 The Court notes that, in addition to failing to file her motion with twenty-eight
days of judgment, Plaintiff filed her motion three days after the extended
deadline.

4

Case 1:16-cv-01215-LM M Document 125 Filed 06/12/19 Page 5 of 5

explained—on several occasions—that it is undisputed that Plaintiff was in
default on her loan as of October 2014. See, e.e.. Dkt. No. [111] at 7-8. As Plaintiff
merely attempts to relitigate issues previously decided by this Court, she has
failed to present grounds to justify granting the “extraordinary remedy” of relief
from judgment under Rule 60(b). In re McFarland. No. 11-10218, 2016 WL
882168, at *5 (Bankr. S.D. Ga. Mar. 7, 2016). Plaintiffs Motion for Relief from
Judgment [121] is therefore DENIED.
III.

CONCLUSION
In light of the foregoing, Plaintiffs Motion to Alter or Amend Clerk’s

Judgment and Final Order [120] is DENIED. Plaintiffs Motion for Relief from
Judgment [121] is DENIED.

12

IT IS SO ORDERED this )AXh day of June, 2019.

llm&. ///w __

Leigh Martin May $
United States District Judge

5

Case 1.16-cv-01215-LMM Document 111 Filed 02/26/19 Page lot 8

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
ANTOINETTE MARQUES,
Plaintiff,
v.
JP MORGAN CHASE N.A.,

CIVIL ACTION NO.
i:i6-CV-12 15-LMM-AJB

Defendant.
ORDER
This case comes before the Court on the Magistrate Judge’s Report and
Recommendation (“R&R”) [106], recommending that the Court deny Plaintiffs
Motion for Judicial Notice [96] and deny her Motion to Strike [102], and that the
Court grant Defendant’s Motion for Summary Judgment [82] and dismiss
Plaintiffs complaint with prejudice. The facts and procedural history of this case
are set forth in the R&R and are fully incorporated herein by reference unless
otherwise noted. Plaintiff filed objections to the R&R [109] and Defendant, in
turn, filed a timely response [110]. After due consideration, the Court enters the
following Order:
I.

LEGAL STANDARD

Under 28 U.S.C. § 636(b)(1), the Court reviews the Magistrate Judge’s
Report and Recommendation for clear error if no objections are filed.

28 U.S.C. §

Case l:16-cv-01215-LMM Document 111 Filed 02/26/19 Page 2 of 8

636(b)(1). If a party files objections, however, the district court must review de
novo any part of the Magistrate Judge’s disposition that is the subject of a proper
objection. I&. As Plaintiff timely filed objections to the Magistrate Judge’s
findings, the Court reviews the challenged findings and recommendations on a de
novo basis.
II.

DISCUSSION

This action arises from Plaintiffs claims for attempted wrongful
foreclosure and false light invasion of privacy. The Magistrate Judge concluded
that (1) Plaintiff cannot establish the requisite elements of her claims; and, (2)
Plaintiffs false light invasion of privacy claim is time-barred. See Dkt. No. [106]
at 19, 23. Plaintiff has raised a number of objections to the R&R, which the Court
will address in turn.
a. nth Cir. R. g-i
Plaintiff first asks the Court to disregard 11th Cir. R. 3-1, cited in the Order
For Service of Report and Recommendation, which provides that where no
objections are filed the Court of Appeals “will deem waived any challenge to
factual and legal findings to which there was no objection.” Dkt. No. [107] at 2.
Because Plaintiffs objection to the application of this rule is not a proper
objection to any part of the Magistrate Judge’s disposition, it is overruled. See 28
U.S.C. § 636(b)(1) (“[A]ny party may serve and file written objections to (a
Magistrate Judge’s] proposed findings and recommendations ....”) (emphasis
added).

Case l:16-cv-01215-LMM Document 111 Filed 02/26/19 Page 3 of 8

The Court recognizes that Plaintiff is proceeding pro se and that a
document filed pro se is "to be liberally construed.” Erickson v. Pardns.

551 U.S.

89> 94 (2007) (citations and internal quotation marks omitted); Tannenbanm v
United States, 148 F.3d 1262,1263 (11th Cir. 1998). However, nothing in that
leniency excuses a plaintiff from compliance with the threshold requirements of
the Federal Rules of Civil Procedure. See Moon v. Newsome. 863 F.2d 835, 837
(11th Cir. 1998), cert, denied, 493 U.S. 863 (1989). Nor does this leniency require
or allow courts “to rewrite an otherwise deficient pleading [by a pro se litigant] in
order to sustain an action.” GJR Invs.. Inc, v. County of Escambia. Fla 132 F.3d
1359> 1369 (11th Cir. 1998). As such, Plaintiffs belief that the Court should excuse
her from complying with the rules of this circuit because she is pro se is both
unfounded and inappropriate.1
b. Issues No Longer in Dispute
Plaintiff next argues that she did not own the Note at the time of the
wrongful foreclosure, that she owed no debt, and that Defendant was not the loan
servicer and therefore not entitled to foreclose. See Dkt. No. [109] at 5-7. As
discussed in the R&R, these issues were previously resolved by the Magistrate

1 This reasoning applies with equal force to Plaintiffs request that "any and all
information obtained in Discovery be used in support of the appeal, even if this
information was not included, overruled, or overlooked in her response.” Dkt.
No. [109] at 17. As discussed, Plaintiffs status as pro se litigant does not excuse
her from compliance with the Federal Rules of Civil Procedure or the rules of this
circuit. Thus, to the extent Plaintiffs request can be construed as an objection, it
is overruled.

3

Case l:16-cv-01215-LMM Document 111 Filed 02/26/19 Page 4 of 8

Judge—and adopted as the holding of this Court—at the motion to dismiss stage.
See Dkt. No. [106] at 15. Because these issues are no longer in dispute, Plaintiffs
objections are overruled.
c. Fee Disclosure Requests and Debt Disputes
Plaintiff also objects to the Magistrate Judge’s finding that Plaintiffs
allegations concerning a final modification agreement and Defendant’s supposed
failure to respond to her requests for information were immaterial to her
remaining claims. See Dkt. No. [109] at 7-8. Plaintiff argues that these facts are
“directly related to the tort of wrongful attempted foreclosure” because
Defendant’s failure to provide information prevented Plaintiff from curing the
default. Id. at 8.
However, Plaintiff does not cite any authority supporting her proposition
that Defendant’s alleged refusal to provide “modification fee disclosures” can
form the basis of her false light invasion of privacy claim. Moreover, as Defendant
correctly notes, Plaintiffs inability to execute a loan modification agreement does
not alter the fact that Plaintiff was in default when the notice was published. See
Dkt. No. [110] at 12. Thus, the Magistrate Judge correctly concluded that such
allegations are immaterial to Plaintiffs remaining claims; Plaintiffs objections
are therefore overruled.2

2 Plaintiff also suggests that Defendant’s “failure to verify or validate the debt”
indicates that the foreclosure was wrongful, and that Defendant’s actions violated
RESPA and TILA. Dkt. No. [109] at 7,10. However, Plaintiff does not offer any

4

Case l:16-cv-01215-LMM Document 111 Filed 02/26/19 Page 5 of 8

d. Evidentiary Objections
Plaintiff next objects to a variety of Defendant’s summary judgment
evidence—all of which miss the mark. See Dkt. No. [109] at 11-13. First, contrary
to Plaintiffs belief, there is no requirement that Defendant authenticate
documents during discovery. See, e.g.. Fed R. Civ. P. 26(b)(1) (“Information
within this scope of discovery need not be admissible to be discoverable.”).
Second, Plaintiff fails to substantiate her evidentiary objections with citations to
facts or law. For example, Plaintiff argues that the Loan History provided by
Defendant is inaccurate. Dkt. No. [109] at 12. But to refute the Loan History,
Plaintiff offers nothing more than her own conclusory assertion that she “never
missed a payment.” See id.3 It is axiomatic that mere declarations, absent specific
citations to evidence, are not sufficient to establish a material issue of fact in
response to a motion for summary judgment. See LR 56.1. N.D. Ga.
Finally, Plaintiff objects to the admissibility of certain evidence. See Dkt.
No. [109] at 11-13. Specifically, Plaintiff contends that certain items are
inadmissible as evidence—but curiously concedes that said evidence may
“possibly [be] used for [the Court’s] Summary Judgment decision.” Dkt. No.
[109] at 11. To the extent such a request can be properly characterized as an
legal authority to support her belief that such allegations have any bearing on the
claims before the Magistrate Judge. Accordingly, such objections are overruled.
3 Despite disputing its accuracy and admissibility, Plaintiff asks the Court to note
that the Loan History Defendant provided “confirms receipt of forbearance and
trial mod. payments.” Dkt. No. [109] at 13 (emphasis in original). This
contradictory request further undercuts the efficacy of Plaintiffs objection.

5

Case l:16-cv-01215-LMM Document 111 Filed 02/26/19 Page 6 of 8

objection under Federal Rule of Civil Procedure 56(c)(2) that “material cited to
support or dispute a fact cannot be presented in a form that would be admissible
in evidence,” Plaintiffs concession renders her objection meritless. As such,
Plaintiffs objections to the Magistrate Judge’s findings with respect to
evidentiary issues are overruled.
e. Equitable Tolling
Plaintiff further objects to the Magistrate Judge’s rejection of her equitable
tolling argument. Dkt. No. [109] at 18. Pursuant to O.C.G.A. § 9-3-33, claims for
false light invasion of privacy must be brought within “one year after the right of
action accrues.” Georgia law does provide an “extremely narrow” non-statutory
doctrine of equitable tolling. Hicks v. City of Savannah. No. CV408-006, 2008
WL 2677128, at *2 (S.D. Ga. July 8,2008). As discussed in the R&R, where a
plaintiff seeks equitable tolling on the basis of fraud, “[t]he statute of limitations
is tolled until the fraud is discovered or by reasonable diligence should have been
discovered.” Dkt. No. [106] at 21 (quoting Hamburger v. PFM Capital Mgmt.,
Inc., 649 S.E.2d 779, 784 (Ga. Ct. App. 2007) (internal citation omitted)
(emphasis added)).
Here, Plaintiff concedes that she filed her false light claim six months past
the statutory deadline. See Dkt. No. [109] at 18. Nevertheless, Plaintiff arg ues
that her claim should be equitably tolled because Defendant utilized “mafia-style
scare tactics that were quite effective in paralyzing [Plaintiff]” and thus prevented
her from filing her case on time. Id. at 20. But, as recognized by the Magistrate

6

Case l:16-cv-01215-LMM Document 111 Filed 02/26/19 Page 7 of 8

Judge, Plaintiffs stated reasons for failing to file suit on time—namely,
Defendant’s representative’s visits to Plaintiffs home-indicate that Plaintiff was
fully aware of the alleged fraud.4 See Dkt. [106] at 23. Accordingly, Plaintiff has
not demonstrated that the doctrine of equitable tolling is applicable to the instant
case.
As a final matter, Plaintiff offers no legal support for her argument that
because six months is “arguably a short time,” the Court should permit her timebarred claim to proceed “in the interest of justice.” Dkt. No. [109] at 20. Plaintiffs
objections with respect to the Magistrate Judge’s findings as to equitable tolling
are therefore overruled.
f. Plaintiffs Loan Default
Plaintiffs remaining objections focus on her repeated assertion that she
had never missed a payment when Defendant “declared the debt in default on
Jan. 3, 2013.” Dkt. No. [109] at 14. As explained at length in the R&R, Plaintiff
only provided her own affidavit and a letter from Defendant declaring her in
default as evidence that she was not in default. See Dkt. No. [106] at 12-13. A
general refutation is simply insufficient to raise a genuine dispute of material
fact. See ii at 13 (citing LR 56.i(B)(2)(a)(2), N.D. Ga.). And, despite Plaintiffs

4 Indeed, Plaintiff admits that she pursued her rights “to the extent of her ability”
prior to filing this suit by sending at least five cease and desist letters and lodging
complaints with the Consumer Financial Protection Bureau. See Dkt. No. [109] at
19-20. Plaintiffs own actions thus indicate awareness of the alleged fraud,
thereby undermining her argument for equitable tolling.
’ -

7

Case l:16-cv-01215-LMM Document 111 Filed 02/26/19 Page 8 of 8

repeated argument that her partial payments to Defendant under the Affordable
Unemployment Program (“UPA”) and Trial Payment Plan (“TPP”) were current,
Plaintiff fails to acknowledge that neither document waived her obligations under
the Loan Agreement. See id at 15-16; see also Dkt. No. [109] at 14-16. As such,
the Magistrate Judge correctly determined that “Plaintiff was in default as early
as November 2, 2012, and Plaintiff has offered no evidence that she cured this
default or otherwise entered another type of forbearance or loan modification
agreement by the time Defendant published the foreclosure notices in 2014.” Dkt.
No. [106] at 18-19. Thus, Plaintiffs objections are overruled.
III.

CONCLUSION

In accordance with the foregoing, the Court ADOPTS the Magistrate
Judge’s R&R [106] as the Order of this Court. Defendant’s Motion for Summary
Judgment is GRANTED and Plaintiffs Complaint is DISMISSED WITH
PREJUDICE. The Clerk is DIRECTED to CLOSE this case.
IT IS SO ORDERED this 26th day of February, 2019.

liirnfi/Jtlycc. /tkx
Leigh Martin May /
United States District Judge

8

Case l:16-cv-01215-LMM Document 106 Filed 01/03/19 Page lot 24

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
ANTOINETTE MARQUES,
Plaintiff,

CIVIL ACTION FILE NO.
1:16-cv-1215-LMM-AJB

v.

JP MORGAN CHASE N.A.,
Defendant.
UNITED STATES MAGISTRATE JUDGE’S ORDER
AND FINAL REPORT AND RECOMMENDATION
This matter is before the Court on the motion for summary judgment filed by
Defendant JP Morgan Chase N.A. (“Chase” or Defendant). [Doc. 82]. Plaintiff also
has filed a motion to take judicial notice, [Doc. 96], and what is construed as a motion
to strike.

[Doc. 102].

For the reasons set forth below, the undersigned

RECOMMENDS that the District Judge GRANT Defendant’s motion and DISMISS
Plaintiffs complaint WITH PREJUDICE. Plaintiffs motions for judicial notice,
[Doc. 96], and to strike, [Doc. 102], are DENIED.
I.

Summary Judgment Standard
Summary judgment is proper when no genuine issue as to any material fact is

present, and the moving party is entitled to judgment as a matter of law.

AO 72A
(Rev.8/8
2)

r
Case l:16-cv-01215-LMM Document 106 Filed 01/03/19 Page 2 of 24

Fed. R. Civ. P. 56(a). The moving party carries the initial burden of “informing the
court of the basis for its motion and of identifying those materials that demonstrate the
absence of a genuine issue of material fact.” Rice-Lamar v. City ofFort Lauderdale,
232 F.3d 836, 840 (11th Cir. 2000) (citing Celotex Corp. v. Catrett, All U.S. 317, 323
(1986)). A fact is “material” if it “might affect the outcome of the suit under the
governing law.” Anderson v. Liberty Lobby, Inc., All U.S. 242, 248 (1986). The
moving party may also meet its burden by pointing out that there is an absence of
evidence to support an element of the case on which the nonmoving party bears the
burden of proof. Celotex Corp., All U.S. at325. “Only when that burden has been met
does the burden shift to the non-moving party to demonstrate that there is indeed a
material issue of fact that precludes summary judgment.” Clark v. Coats & Clark, Inc.,
929 F.2d 604, 608 (11th Cir. 1991).
The nonmoving party is then required “to go beyond the pleadings” and present
competent evidence in the form of affidavits, depositions, admissions, and the like,
designating “specific facts showing that there is a genuine issue for trial.” Celotex
Corp., All U.S. at 324. “The mere existence of a scintilla of evidence” supporting the
nonmovant’s case is insufficient to defeat a motion for summary judgment. Anderson,
All U.S. at 252. “[F]acts must be viewed in the light most favorable to the nonmoving
2

AO 72A
(Rev.8/8
2)

Case l:16-cv-01215-LMM

Document 106 Filed 01/03/19 Page 3 of 24

party only if there is a ‘genuine’ dispute as to those facts.”

Scott v. Harris,

550 U.S. 372, 380 (2007). “When opposing parties tell two different stories, one of
which is blatantly contradicted by the record, so that no reasonable jury could believe
it, a court should not adopt that version of the facts for purposes of ruling on a motion
for summary judgment.”

Id.

If the record does not blatantly contradict the

nonmovant’s version of events, the court must determine “whether a fair-minded jury
could return a verdict for the plaintiff on the evidence presented.” See Anderson,
All U.S. at 252; see also EPL Inc. v. USA Fed. Credit Union, 173 F.3d 1356, 1362
(11th Cir. 1999); Duke v. Cleland, 884 F. Supp. 511, 514 (N.D. Ga. 1995). “If the
record presents disputed issues of material fact, the Court may not decide them; rather,
it must deny the motion and proceed to trial.” FindWhat Inv. Grp. v. FindWhat.com,
658 F.3d 1282, 1307 (11th Cir. 2011) (citing Tullius v. Albright, 240 F.3d 1317, 1320
(11th Cir. 2001)).
IL

Procedural History
On April 15, 2016, Plaintiff filed a pro se complaint in this Court against

Defendant, alleging violations under the Fair Debt Collections Practices Act
(“FDCPA”), the Real Estate Settlement Procedures Act (“RESPA”), and the Fair Credit
Reporting Act (“FCRA”). [Doc. 1]. Plaintiff s complaint also alleged state law claims
3

AO 72A
(Rev.8/8
2)

Case l:16-cv-01215-LMM Document 106 Filed 01/03/19 Page 4 of 24

for trespass, invasion of privacy, harassment and stalking, libel, attempted wrongful
foreclosure, and “abuse of civil process.” [Id.]. Fairly read, the bases for this Court’s
jurisdiction

was

both

federal

question

and

diversity

of

citizenship. [See Doc. 25 at 24 n. 10].
Chase filed a motion to dismiss Plaintiff s complaint, asserting that the complaint
failed to state a viable claim for relief. [Doc. 13]. This Court issued a Report and
Recommendation (“R&R”) recommending that the District Judge dismiss Plaintiffs
RESPA, FDCPA, FCRA, trespass, harassment, stalking, libel, and abuse of civil
process claims, allowing only her attempted claims for wrongful foreclosure and false
light invasion of privacy with respect to publication of allegedly false information
regarding Defendant’s foreclosure notices in the newspaper to remain, [Doc. 25], which
R&R the District Judge adopted in its entirety, [Doc. 31].
On April 6, 2017, Plaintiff filed a motion for reconsideration of the District
Judge’s Order adopting the R&R, [Doc. 32], and a motion to amend her complaint,
[Doc. 33], both of which were denied, [Docs. 39,40]. Plaintiff then filed a motion for
default judgment, [Doc. 54], for sanctions, [Doc. 51], to vacate the undersigned’s
previous order denying her motion to amend, [Doc. 65], and a motion to compel
discovery, [Doc. 74]. The undersigned denied each. [Docs. 90-91, 105].
4

AO 72A
(Rev.8/8
2)

Case l:16-cv-01215-LMM Document 106 Filed 01/03/19 Page 5 of 24

Defendant filed the pending summary judgment motion on May 7,2018, with an
accompanying memorandum, statement of undisputed material facts (“SUMF”),
declarations, and exhibits. [Docs. 82 to 82-13]. After requesting, [Doc. 86], and being
granted, [Doc. 87], until June 8, 2018 to respond, Plaintiff filed her response to
Defendant’s motion, with an accompanying memorandum on June 11, 2018,
[Docs. 92 to 92-2]. On that same date, Plaintiff also responded to Defendant’s
statement of material facts, [Doc. 93], and filed her own statement of material facts,
[Doc. 94], a motion for judicial notice,1 [Doc. 96], and her affidavit, [Doc. 95].
Defendant requested an extension of time to reply, [Doc. 96], which the Court granted,
allowing Defendant to reply up through and including July 9, 2018, [Doc. 98].

In the motion for judicial notice, Plaintiff asks the Court to take judicial
notice of the following: an FDIC public website that allegedly supports her objections
to Defendant’s claim that the Deed was transferred to it; a Wall Street Journal article
that allegedly supports her “allegation of injury caused by wrongful foreclosure
threats”; a forensic examination of real property and circuit court records from Osceola
County, Florida, that allegedly support her claims of robosigning; a Wikipedia article
to support her allegation concerning the term “public security”; and recently published
cases in California state court. [See Doc. 96]. Attached to this motion are exhibits
[Doc. 96-1], cited in Plaintiff s response in opposition to Defendant’s motion, affidavit,
response to Defendant’s statement of material facts, and additional statement of
material facts. [Docs. 92-1, 93-5]. As Plaintiff is proceeding pro se, it appears that
these may have been meant as exhibits attached to Plaintiffs affidavit. As such the
undersigned will consider them in referring to her response to Defendant’s summary
judgment motion.
5

AO 72A
(Rev.8/8
2)

Case l:16-cv-01215-LMM Document 106 Filed 01/03/19 Page 6 of 24

Defendant then filed its reply, [Doc. 100],2 along with its responses to Plaintiffs
statement of material facts, [Doc. 99], and her motion for judicial notice3, [Doc. 101].

2
Plaintiff moved to strike Defendant’s reply, response to her statement of
material facts, and motion for judicial notice on the grounds that they “were not served
in accord with their Certificates of Service, and they were mailed extra untimely.”
[Doc. 102 at 2]. Specifically, Plaintiff contends that the documents’ certificates of
service state that they were served by mail on July 9, 2018, but postage indicates they
were only mailed on July 11, 2018, and she received them July 18, 2018. [Id.].
Plaintiff contends they took “an unusual seven days to arrive” and, therefore, she
disputes the mailing date. [Id.].
Defendant responds that, in addition to filing these documents electronically on
July 9, 2018, it emailed them to Plaintiff on the same date, and, as Plaintiff is not
required and did not file a sur-reply, she cannot show she was prejudiced by receiving
the mailed copies on July 18, 2018. [Doc. 101 at 1-3].
The undersigned agrees with Defendant. As explained in prior orders, the
discrepancy in the certificate of service on Defendant’s reply was not in bad faith and
she cannot credibly claim that she was prejudiced by it. Moreover, Plaintiff failed to
adhere to the Scheduling Order in filing her motion to strike. Consequently, to the
extent that Plaintiffs filing, [Doc. 102], can be construed as a motion to strike, the
Court DENIES it.
3
Defendant argued that the Court should deny this motion because Plaintiff
only asks for judicial notice to support arguments-conceming the validity of the
underlying Loan documents and Defendant’s right to foreclose-that are no longer
before the Court and are therefore irrelevant and not subject to judicial notice.
[Doc. 101 at 2 (citing Ballad v. Bank of Am. Corp., No. 1:13-CV-4011-ODE-RLV,
2014 WL 11970543, at *1 (N.D. Ga. Sept. 11, 2014); Martincek v. LVNVFunding,
LLC, No. l:16-cv-3587-ELR-JFK, 2017 WL2903356, at *2-3; BRE Mariner Marco
Town Ctr., LLC v. Zoom Tan, Inc., 682 Fed. Appx. 744, 748 n.3 (11th Cir.
Mar. 13,2017))].
6

AO 72A
(Rev.8/8
2)

r
Case l:16-cv-01215-LMM Document 106 Filed 01/03/19 Page 7 of 24

With briefing completed, the pending summary judgment motion and the other motions
are ripe for disposition or recommended resolution.
Ill

Facts
The Court previously concluded that the original promissory note (“the Note”)

and security deed (“the Deed”) to secure property located at 63 50 Klondike River Road,
Lithonia, Georgia 30038 (“the Property”) (collectively “the Loan”) executed by
Plaintiff were assigned to Defendant on June 14, 2013. It also concluded that, prior
to that date, on September 25,2008, Defendant began servicing the Loan. Additionally,
it is undisputed that, beginning in 2013, Defendant sent default notices and initiated
foreclosure proceedings, however, no foreclosure sale has occurred. Therefore, as the
Court has made clear on more than one occasion, the validity of the Loan, who is
responsible for servicing and enforcing it, and who has rights to foreclose pursuant to
it, are no longer subject to dispute. [See Docs. 25, 31]. The only remaining issues in
this case concern Plaintiffs claims for attempted wrongful foreclosure and false light
invasion ofprivacy with respect to publication of allegedly false information contained

The undersigned agrees that the purposes for which Plaintiff wishes the Court
to take judicial notice are irrelevant to the remaining claims. Accordingly, the Court
DENIES Plaintiffs motion for judicial notice. [Doc. 96].
7

AO 72A
(Rev.8/8
2)

Case l:16-cv-01215-LMM Document 106 Filed 01/03/19 Page 8 of 24

in Defendant’s foreclosure notices in the newspaper. [See id.]. The facts for purposes
of analyzing these remaining claims under the pending motion are as follows.
The last complete full monthly payment (in the amount of $855.76) Plaintiff
made to Defendant under the Loan was on October 10, 2012 for the October 1, 2012
installment due under the Note. [Doc. 82-21)214]. On October 1,2012, Defendant sent
Plaintiff a letter approving her request for a temporary mortgage payment reduction (or

4
Plaintiff objects that the declaration is inadmissible and “Loan History
is . . . not material and inadmissible. Citations do not support the fact.” [Doc. 93
at U 21]. However, Plaintiff offers no citation to any facts or law explaining how or
why this is inadmissible. [Id.].
As Defendant points out in reply, “the ‘only permissible way ... to establish a
genuine issue of material fact’ in response to a summary judgment motion is to comply
with Local Rule 56.1.” [Doc. 100 at 5 (citing Reese v. Herbert, 521 F3d 1253, 1268
(11th Cir. 2008))]. Indeed,
[t]his Court will deem each of the movant’s facts as admitted unless the
respondent: (i) directly refutes the movant’s fact with concise responses
supported by specific citations to evidence (including page or paragraph
number); (ii) states a valid objection to the admissibility of the movant’s
fact; or (iii) points out that the movant’s citation does not support the
movant’s fact or that the movant’s fact is not material or otherwise has
failed to comply with the provisions set out in LR 56.1 B.(l).
L.R. N.D. Ga. 56.1(B)(2)(a)(2). As Plaintiffs response offers no refutation of
Defendant’s fact with any specific citation, nor does it state anything more than a
general objection to admissibility and materiality, she has not complied with Rule 56.1.
Accordingly, her objection is OVERRULED and Defendant’s SUMF atf 21 is deemed
admitted as undisputed for purposes of ruling on the summary judgment motion.
8

AO 72A
(Rev.8/8
2)

Case l:16-cv-01215-LMM Document 106 Filed 01/03/19 Page 9 of 24

forbearance) through its Affordable Unemployment Program (“UPA”). [Id. at
23; Doc. 93 at

22-

22-235]. The UPA contains the following provisions:

•

a forbearance period effective November 1, 2012 through April 1,
2013 or when Plaintiff becomes employed or stops seeking
employment;
•
a monthly forbearance payment of $133.05 due the first of the
month (which is not a waiver of the required full monthly
payment);
•
missed or late monthly payments shall result in default;
•
the UPA is not a loan modification and the current loan is still in
full force and effect;
•
Defendant may send legal notices as a condition of any foreclosure
during the forbearance period; and
•
Defendant can cancel the UPA without notice if there is any breach
of the UPA and initiate or resume collections and foreclosure
efforts.
[Doc. 82-2 at ^ 246]. Plaintiff executed the UPA on October 5, 2012. [Id. at ^ 257].
5
Although Plaintiff objects to the UPA as “inadmissible and citations do not
support the fact,” she “admits accepting and complying with a forbearance.”
[Doc. 93 at fl 22-23]. However, Plaintiff offers no citation to any facts or law
explaining how or why these statements are inadmissible. [Id.]. Accordingly, her
objection is OVERRULED and Defendant’s SUMFs at 22-23 are deemed admitted
as undisputed for purposes of ruling on the summary judgment motion.
6
Plaintiff objects that the UPA is “inadmissible and citation does not
support the fact.” [Doc. 93 at ^ 24]. Again, Plaintiff offers no citation to any facts or
law explaining how or why this is inadmissible. [Id.]. Accordingly, her objection is
OVERRULED and Defendant’s SUMF at K 24 is deemed admitted as undisputed for
purposes of ruling on the summary judgment motion.
7
Plaintiff objects that the UPA is “inadmissible and citation does not
support the fact.” [Doc. 93 at T( 25]. However, she “admits a forbearance was executed
on Oct. 5, 2012, and the first payment made in Nov. 2012.” Again, Plaintiff offers no
9

AO 72A
(Rev.8/8
2)

Case l:16-cv-01215-LMM

Document 106 Filed 01/03/19 Page 10 of 24

Plaintiff did not make her first payment under the UPA on or before November
1, 2012, but paid $135 onNovember 27, 2012, December 21, 2012, January 23,2013,
February 14, 2013, and March 28, 2013. [Id. at

26-278]. Defendant alleges that

Plaintiff continued to make payments of $134 on April 29 and May 29, 2013.
[Id. atf289].
On May 28,2013, Defendant sent Plaintiff a three-month Trial Period Payment
Plan (“TPP”) that permitted her to make three “trial period payments” of $421.71 each
month while being considered for a potential loan modification. [Id. at

31-3210].

citation to any facts or law explaining how or why this is inadmissible. [Id.].
Accordingly, her objection is OVERRULED andDefendant’s SUMF at T[ 25 is deemed
admitted as undisputed for purposes of ruling on the summary judgment motion.
8
Plaintiff objects that “[t]he Loan History is . . . not material and
inadmissible. Citation does not support the fact.” [Doc. 93 at
26-27]. Again,
Plaintiff offers no citation to any facts or law explaining how or why these statements
are inadmissible. [Id.]. Accordingly, her objection is OVERRULED and Defendant’s
SUMFs at -n 26-27 are deemed admitted as undisputed for purposes of ruling on the
summary judgment motion.
9

See note 5.

10

Plaintiff agrees that she “completed a Trial Period Payment Plan. She does
not know if it is identical to the redacted “TPP[,]” but objects on the grounds that the
affidavits and TPP are “not material and inadmissible. Citations do not support the
fact.” [Doc. 93 at
31-32]. Again, Plaintiff offers no citation to any facts or law
explaining how or why these statements are not admissible. [See id.]. Accordingly, her
objection is OVERRULED and Defendant’s SUMFs at 31-32 are deemed admitted
as undisputed for purposes of ruling on the summary judgment motion.
10

AO 72A
(Rev.8/8
2)

Case l:16-cv-01215-LMM Document 106 Filed 01/03/19 Page 11 of 24

Like the previous UPA, the TPP stated that it did not alter the underlying Loan and
Plaintiffs acceptance of it did not waive Defendant’s right to accelerate the Loan or
foreclose upon the Property or cure Plaintiffs default.

[Id. at

33-3411]. On

July 1 and August 16, 2013, Plaintiff made payments of $421.71. [Id. at If 3512]. She
also made a partial payment on September 9, 2013, which was the last payment
Defendant received from her. [Id. at Tj^f 36-3713].
On September 23, 2014, Martin & Brunavs (Defendant’s foreclosure counsel)
sent a Notice of Acceleration and Foreclosure letter to Plaintiff. [Id. at If 3914]. At that
time the unpaid principal amount on the Loan was $106,251.56. [Id. at If 4115]. The
Foreclosure Notice contained a Notice of Sale Under Power identifying the Deed and

11
Plaintiff objects that the redacted TPP is “not material and inadmissible.
Citation does not support the fact.” [Doc. 93 at 33-34]. Again, Plaintiff offers no
citation to any facts or law explaining how or why this is inadmissible. [See id.].
Accordingly, her objection is OVERRULED and Defendant’s SUMFs at 33-34 are
deemed admitted as undisputed for purposes of ruling on the summary judgment
motion.
12

See note 5.

13

See notes 5 and 7.

14

“Plaintiff agrees that Chase retained the firm of Martin & Brunavs to
initiate foreclosure proceedings in or around Sept. 2014 and mailed the Foreclosure
Notice.” [Doc. 93 at ^ 39].
15

See note 5.
11

AO 72A
(Rev.8/8
2)

Case l:16-cv-01215-LMM Document 106 Filed 01/03/19 Page 12 of 24

stating that the debt secured by. it “has been and is hereby declared due because of
nonpayment of indebtedness when due in the manner provided in the Note and Security
Deed. The debt remaining in default, the sale will be made for the purpose of paying
the same. . . .” [Id. at

43-4416]. Foreclosure counsel caused this notice to be

published in The Champion Newspaper in DeKalb County, Georgia on October 9,16,
23, and 30, 2014. [Id. at^f 4517].
Plaintiff submitted her own statement of additional material facts. [Doc. 94].
First, she claims that “Defendant declared the debt in default on Jan. 3, 2013 while
Plaintiff was current in making reduced payments as agreed in the Forbearance
Agreement. [Id. at ^ 2 (citing [Docs. 95 at % 3, 96-1 at 18])]. However, the cited
portion of Plaintiff s affidavit only states that she “had never missed a payment” and
the exhibit referenced is the letter from Defendant declaring her in default. [Id. ]. These
documents do not show the Court whether Plaintiff, in fact, made any payments as
specified under the Loan, UPA, or TPP. As the undersigned previously explained,
general refutations unsupported “by specific citations to evidence (including page or

16

Plaintiff did not respond to these statements of fact. [Doc. 93 at 17].
Accordingly, they are deemed admitted under LR 56.1(B)(2)(a)(2), NDGa.
17

“Plaintiff agrees that Chase caused default notices to be published in the
Champion Newspaper on Oct. 9, Oct. 16, Oct. 23, and Oct. 30.” [Doc. 93 at ^ 45].
12

AO 72A
(Rev.8/8
2)

Case l:16-cv-01215-LMM Document 106 Filed 01/03/19 Page 13 of 24

paragraph number)” are insufficient to raise a genuine dispute of material fact.
LR 56.1(B)(2)(a)(2), NDGa. As such Plaintiffs assertion that she had not missed a
payment is unsupported and does not raise a genuine, disputed material fact.
Second, Plaintiff claims that Defendant “sent a Notice of Intent to Foreclose on
May 6,2013 while Plaintiff was current in making reduced payments as agreed in the
Forbearance extension, which became effective May 1, 2013.” [Id. at U 3 (citing
[Docs. 95 at^[ 3,96-1 at 7])]. Again, the cited portion of Plaintiff s affidavit only states
that she “had never missed a payment” and the exhibit referenced is a Notice of Intent
to Foreclose. [Id.]. As such, Plaintiffs assertion that she had not missed a payment is
unsupported and does not raise a genuine issue of disputed material fact.
Plaintiff s remaining allegations concern a Final Modification Agreement which
Defendant denied because she “did not return the final modification agreement within
the required time frame.” [Id. at

4, 9-10, 12]. The contentions also reiterate her

previously dismissed arguments concerning the ownership of the Loan and right to
foreclose. [Id. at fl 13-25]. Lastly, Plaintiff asserts that she requested information
concerning her Loan (specifically fees and debt disputes) to which Defendant refused
to respond. [Id. at

5-8,28-30,36]. Notably, to the extent that any of these issues can

be construed as related to the claims raised in Plaintiffs complaint-which asserted only
13

AO 72A
(Rev.8/8
2)

Case l:16-cv-01215-LMM Document 106 Filed 01/03/19 Page 14 of 24

violations of FDCPA, RESPA, and FCRA-the Court already dismissed all claims
regarding ownership rights of the Loan and disclosures related to the same. [Docs. 1,
25, 31]. Consequently, these facts, whether disputed or not, are not material to the
claims presently before this Court, which concern only the publication of information
concerning Plaintiff s indebtedness on the Property, which information Plaintiff claims
was false.
IV

Discussion
Defendant argues that Plaintiffs remaining claims for attempted wrongful

foreclosure and false light invasion of privacy should be dismissed because Plaintiff
defaulted on her obligations under the Loan and, consequently, there was nothing false
about their publication. [Doc. 82 at 2]. Defendant also argues that Plaintiff s false light
invasion of privacy claim is time-barred by Georgia’s one-year statute of limitations.
[Id.]. The undersigned will address each argument in turn.
A.

Whether Plaintiff Was in Default When Defendant Published the
Foreclosure Notice

Defendant alleges that the last complete full monthly payment (in the amount of
$855.76) Plaintiff made to it under the Loan was on October 10, 2012 for the
October 1,2012 installment due under the Note. [Doc. 82-2 ^ 21]. Plaintiff responds
that Defendant had no authority to foreclose because it is not the holder of the Deed or
14

AO 72A
(Rev.8/8
2)

Case l:16-cv-01215-LMM Document 106 Filed 01/03/19 Page 15 of 24

Note, she owes Defendant no debts, or Defendant is not the Loan servicer. [Doc. 92-1 ].
As has been previously explained, these issues were already decided by the Court and
are no longer subject to dispute. [Docs.25, 31], Plaintiff also claims that there is no
default because she has no contract with Defendant. [Id. at 8].
However, Plaintiff “admits a forbearance was executed on Oct. 5,2012, and the
first payment made in Nov. 2012.” [Doc. 93 at

25]. Indeed, Defendant has shown

that Plaintiff entered the UPA on October 5,2012 and made her first payment under it
on November 27, 2012. [Doc. 82-2 at

25-26]. The UPA provided that, from

November 1, 2012 through April 1,2013, Plaintiff was to make monthly payments of
$133.05 to Defendant due the first of the month. [Id. at ^ 24]. However, the UPA did
not waive Plaintiffs obligations under the Loan and specified that missed or late
payments would result in default. [Id.].
The undisputed facts demonstrate that Plaintiff did not make her first payment
under the UPA on or before November 1,2012, but paid $ 13 5 on November 27,2012,
December 21, 2012, January 23, 2013, February 14, 2013, and March 28, 2013.
[Id. at

26-27]. Plaintiff made payments of $134 on April 29 and May 29, 2013.

[Id. at H 28]. By the UPA’s very terms Plaintiffs late payment on November 27,2013
constituted a default, as it was due on November 1, but she paid it late.
15

AO 72A
{Rev.8/8
2)

Case l:16-cv-01215-LMM Document 106 Filed 01/03/19 Page 16 of 24

Nevertheless, the parties entered into the TPP, which required Plaintiff to make
three payments of $421.71 each month for three months while being considered for a
potential loan modification. [Id. at

31-22]. The TPP provided that it did not cure

Plaintiffs default, alter the underlying Loan and Plaintiffs acceptance of it, or waive
Defendant’s right to accelerate the Loan or foreclose upon the Property. [Id. at

33-

34], On July 1 and August 16,2013, Plaintiff made payments of $421.71. [Id. at TJ 35].
She also made a partial payment on September 9, 2013, which was the last payment
Defendant received from her. [Id. at

36-37]. Therefore, it is undisputed that

Plaintiff was in default at the time of the TPP, failed to make complete payments under
it, and neither the UPA nor the TPP relieved her of her payment responsibilities under
the Loan (nor waived Defendant’s rights under the same). Accordingly, she was in
default as early as November 2, 2012 and, certainly by September 9, 2013, when she
made her last (incomplete) payment under the TPP.
On September 23, 2014, Defendant, through foreclosure counsel, sent aNotice
of Acceleration and Foreclosure letter to Plaintiff. [Id. at ^ 39]. The Foreclosure Notice
contained a Notice of Sale Under Power, which was published in The Champion
Newspaper in DeKalb County, Georgia, on October 9,16,23, and 3 0,2014, identifying
the Deed and stating that the debt secured by it “has been and is hereby declared due
16

AO 72A
(Rev.8/8
2)

Case l:16-cv-01215-LMM Document 106 Filed 01/03/19 Page 17 of 24

because of nonpayment of indebtedness when due in the manner provided in the Note
and Security Deed. The debt remaining in default, the sale will be made for the purpose
of paying the same. . .

[Id. at

43-45]. As Plaintiff defaulted as early as

November 2, 2012, the Notice was published on October 9, 2014, and there is no
evidence that Plaintiff cured the default in the intervening time, the publication was not
false.
To reiterate what the Court previously explained in recommending a ruling on
Defendant’s motion to dismiss,
To state a claim for attempted wrongful foreclosure under Georgia
law, Plaintiff “must establish ‘a knowing and intentional publication of
untrue and derogatory information concerning the debtor’s financial
condition, and that damages were sustained as a direct result of this
publication.’ ” Fenello v. Bank ofAm., N.A., 926 F. Supp. 2d 1342,1353
(N.D. Ga. 2013) (Duffey, J.) (quoting Jenkins v. McCalla Raymer, LLC,
492 Fed. Appx. 968, 972 (11th Cir. Oct. 25, 2012), and Aetna Fin. Co. v.
Culpepper, 171 Ga. App. 315,319,320 S.E.2d 228,232 (1984)); Mzyrarcf
v. Deutsche Bank Trust Co. Ams., Civ. Action File
No. 1:10-CV-3094-TWT, 2011 WL 1897674, at *2
(N.D. Ga. May 17, 2011) (Thrash, J.) (also quoting Culpepper, supra).
Plaintiffs complaint alleges that Defendant wrongfully attempted
to foreclose on the Property because it published false foreclosure notices
starting in 2013 and presented false information regarding her financial
condition to law firms and credit bureaus. [Doc. 1 at 51]. Specifically,
Plaintiff alleges that Defendant falsely alleged she was in default when
she was not. [Id.).

17

AO 72A
(Rev.8/8
2)

Case l:16-cv-01215-LMM Document 106 Filed 01/03/19 Page 18 of 24

In order to sustain a false light invasion of privacy claim, a plaintiff
must allege sufficient facts to establish a plausible claim that a defendant
knowingly or recklessly published falsehoods about her and, as a result,
placed her in a false light which would be highly offensive to a reasonable
person. See Smith v. Stewart, 291 Ga. App. 86,100, 660 S.E.2d 822, 834
(2008). In order to be actionable, a false light invasion of privacy claim
must be distributed to the public at large. Blakey v. Victory Equip. Sales,
Inc., 259 Ga. App. 34, 37, 576 S.E.2d 288,292 (2002). The plaintiff in a
false light case also must establish that the publicity was in fact false. See
Pospicilv. Buying Office, Inc., 71 F. Supp. 2d 1346,1362 (N.D.Ga. 1999)
(Forrester, J.).
Plaintiff claims that Defendant published information that placed
her in a false light by (1) presenting inaccurate financial information to
three law firms and publishing false information in the local paper related
to the wrongful foreclosure attempts, and (2) filing a frivolous complaint
for declaratory judgment in state court. [Doc. 1 at 41].
[Doc. 25 at 25-26, 31]. In that earlier R&R, adopted by the District Judge, the
undersigned recommended that the District Judge conclude that Defendant had failed
to establish that Plaintiff was in default because Plaintiffs complaint alleged that she
was still current on her loan and in the forbearance period in December 2013 when
Defendant published the foreclosure notice. [Id. at 27 (citing [Doc. 1 at51-52, 121]),
32]. However, in the current motion for summary judgment, Defendant has shown that,
even by the terms of the forbearance agreement (or UPA), Plaintiff was in default as
early as November 2, 2012, and Plaintiff has offered no evidence that she cured this
18

AO 72A
(Rev.8/8
2)

Case l:16-cv-01215-LMM Document 106 Filed 01/03/19 Page 19 of 24

default or otherwise entered another type of forbearance or loan modification agreement
by the time Defendant published the foreclosure notices in 2014. Therefore, the notices
published by Defendant were not false and Plaintiff cannot establish these requisite
elements of her attempted wrongful foreclosure and false light invasion of privacy
claims.
Accordingly, the undersigned RECOMMENDS that the District Judge GRANT
Defendant’s summary judgment motion, [Doc. 82], and DISMISS Plaintiff s remaining
claims WITH PREJUDICE.
B.

Whether Plaintiffs False Light Invasion of Privacy Claim is Barred
by Georgia’s One-Year Statue of Limitations

In the event the District Judge does not agree with the undersigned’s conclusion
that Plaintiffs false light privacy claim is due to be dismissed because she was in
default and thus Defendant did not make any statements that held her in a false light,
the Court also addresses Defendant’s alternative argument. Defendant argues that
Plaintiffs false light invasion of privacy claim is time-barred by Georgia’s one-year
statute of limitations under O.C.G.A. § 9-3-33. [Doc. 82-1 at 15]. In Georgia, any
injuries to an individual’s reputation-which includes false light invasion of
privacy-“shall be brought within one year after the right of action accrues[.]”

19

AO 72A
(Rev.8/8
2)

Case l:16-cv-01215-LMM Document 106 Filed 01/03/19 Page 20 of 24

O.C.G.A. § 9-3-33; Torrance v. Morris Pub. Grp. LLC, 281 Ga. App. 563, 566,
636 S.E.2d 740,743 (2006) (“[T]he one-year limitation period applies to claims of libel
and ‘false light’ invasion of privacy/] as well as conspiracy to libel and slander.”)
(footnotes and internal citations omitted). Defendant’s foreclosure counsel published
the Notice of Sale Under Power in The Champion Newspaper in DeKalb County,
Georgia, on October 9, 16, 23, and 30, 2014. [Doc. 82-1 at

43-45]. Plaintiffs

complaint alleging false light invasion of privacy was filed April 15, 2016, outside of
the one-year limitations period of § 9-3-33. [Doc. 1]. Therefore, she filed her
complaint after the statute of limitations had run.
Plaintiff argues that the statute of limitations should be equitably tolled because
of “the injury, the five cease-and-desist letters she sent to Chase, its dual tracking,
unnecessary foreclosure threats while she was current, and refusal to provide fee
disclosures, in addition to any other acts.” [Doc. 92-1 at 6]. Defendant replies that
Plaintiff “fails to set fort any competent summary judgment evidence to demonstrate
equitable tolling.” [Doc. 100 at 7]. Defendant contends that equitable tolling is
applicable when a litigant has diligently pursued his rights and there is some
extraordinary circumstance that prevented timely filing. [Id. (citing Menominee Indian
Tribe ofWis. v. United States, 136 S. Ct. 750, 755 (2016); Villareal v. R.J. Reynolds
20

AO 72A
(Rev.8/8
2)

Case l:16-cv-01215-LMM Document 106 Filed 01/03/19 Page 21 of 24

Tobacco Co., 839 F.3d 958, 871 (11th Cir. 2016))]. Here, Defendant argues that
Plaintiffs claim for equitable tolling is based on conclusory allegations lacking any
evidentiary or legal support. [Id. at 7-8].
The undersigned agrees, although the standard to be applied here is one of state,
and not federal, law.18 “Georgia’s non-statutory doctrine of equitable tolling is
extremely narrow.” Hicks v. City of Savannah, No. CV408-006, 2008 WL 2677128,
at *2 (S.D. Ga. July 8,2008); see also Bostv. Fed. Express Corp.,312 F.3d 1233,1242
(11th Cir. 2004) (“Equitable tolling is an extraordinary remedy which should be
extended only sparingly.”). Under Georgia law, when a plaintiff seeks equitable tolling
on the basis of fraud—as Plaintiff generally does here-

6C

6

[t]he statute of limitation is

tolled until the actual fraud is discovered or by reasonable diligence should have been
discovered.’ ”

Clark v. Chase Bank USA, N.A., 643 Fed. Appx. 838, 840

(lltb Cir. Feb. 12, 2016) (quoting Gerald v. Doran, 169 Ga. App. 22, 23,
311 S.E.2d 225, 226 (1983) (emphasis in original)); see also Hamburger v. PFM

18

A federal court sitting in diversity must apply the substantive law,
including statutes of limitations, of the relevant state, which in this case is Georgia. See
Mississippi Valley Title Ins. Co. v. Thompson, 802 F.3d 1248, 1251 (11th Cir. 2015).
21

AO 72A
(Rev.8/8
2)

Case l:16-cv-01215-LMM Document 106 Filed 01/03/19 Page 22 of 24

Capital Mgmt, Inc., 286 Ga. App. 382, 388, 649 S.E.2d 779, 784-85 (2007)19; cf,
Fuller v. Dreischarf, 238 Ga. App. 18, 20, 517 S.E.2d 89, 91 (1999) (holding that
“plaintiffs cannot rely on the equitable tolling provisions of OCGA § 9-3-96 because
they failed to exercise reasonable diligence to discover the fraud. . . .”). “Mere
ignorance of facts constituting a cause of action does not prevent the running of a

19

The Hamburger court aptly summarized Georgia law on limitations and
equitable tolling, explaining that equitable tolling is appropriate when:
“The defendant... is guilty of a fraud by which the plaintiff has been
debarred or deterred from bringing an action, the period of limitation shall
run only from the time of the plaintiffs discovery of the fraud.” In cases
where the gravamen of the underlying cause of action is actual fraud, “the
statute of limitations is tolled until the fraud is discovered or by
reasonable diligence should have been discovered.” And “[f]ailure to
exercise reasonable diligence to discover the fraud may be excused where
a relationship of trust and confidence exists between the parties.” In
contrast, “where the gravamen of the underlying action is not a claim of
fraud, ... the statute of limitations is tolled only upon a showing of a
separate independent actual fraud involving moral turpitude which deters
a plaintiff from filing suit. In such cases, before the running of the
limitation period will toll, it must be shown that the defendant concealed
information by an intentional act-something more than a mere failure,
with fraudulent intent, to disclose such conduct, unless there is on the
party committing such wrong a duty to make a disclosure thereof by
reason of facts and circumstances, or the existence between the parties of
a confidential relationship.”
Hamburger, 286 Ga. App. at 388, 649 S.E.2d at 784-85 (citations and footnotes
omitted, paragraph breaks deleted).
22

AO 72A
(Rev.8/8
2)

Case l:16-cv-01215-LMM Document 106 Filed 01/03/19 Page 23 of 24

statute of limitations.” Gerald, 169 Ga. App. at 23, 311 S.E.2d at 226 (citations
omitted); see also Everhart v. Rich’s, Inc., 229 Ga. 798, 803, 194 S.E.2d 425, 429
(1972) (“ignorance . . . absent the element of fraud, does not toll a statute of
limitation”).
Even assuming Plaintiff had not defaulted on her loan and Defendant’s
publication of the Notice was false, her invocation of the doctrine of equitable tolling
is utterly bereft of any factual or legal support. Indeed, she relies on perfunctory and
conclusory claims concerning Defendant’s right to foreclose and disclosures, claims
that the District Court already dismissed. Furthermore, Plaintiff s stated reasons for not
acting within the statute of limitations—“the injury, the five cease-and-desist letters she
sent to Chase, its dual tracking, unnecessary foreclosure threats while she
was current, and refusal to provide fee disclosures, in addition to any other acts,”
[Doc. 92-1 at 6]—demonstrate that Defendant did not act so as to dissuade or debar
Plaintiff from timely filing suit. Thus, her equitable tolling argument is rejected.
Accordingly, the undersigned RECOMMENDS that the District Judge GRANT
Defendant’s motion for summary judgment and DISMISS Plaintiffs false light
invasion of privacy claim as having been filed outside of the statute of limitations.

23

AO 72A
(Rev.8/8
2)

Case l:16-cv-01215-LMM Document 106 Filed 01/03/19 Page 24 of 24

V,

Conclusion
For the reasons set forth above, Plaintiffs motion for judicial notice, [Doc. 96],

and to strike Defendant’s reply, response to her statement of material facts, and
response to her motion for judicial notice, [Doc. 102], are DENIED. Further, the
undersigned RECOMMENDS that the District Judge GRANT Defendant’s summary
judgment motion, [Doc. 82], andDISMISS Plaintiffs complaint WITH PREJUDICE.
The Clerk of the Court is DIRECTED to TERMINATE the reference to the
undersigned.
IT IS SO ORDERED, RECOMMENDED, and DIRECTED, this the 3rd day
of January, 2019.

ALAN J. BAVERAL4N
UNITED STATES MAGISTRATE JUDGE

24

AO 72A
(Rev.8/8
2)

Additional material
from this filing is
available in the
Clerk's Office.

